No.:

-8435

IN THE
SUPREME COURT OF THE UNITED STATES

VLADIMIR EUGENE,,
Petitioner,

May 2 7 2021
office of

versus
ATTORNEY GENERAL OF FLORIDA, Ashley Moody,
Respondent(s).

ON PETITION FOR WRIT OF CERTIORARI TO
THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FOURTH DISTRICT

AMENDED
PETITION FOR WRIT OF CERTIORARI

RECEIVED
JUN 2 8 2021

Sup^MmmfL5RsK

'

Vladimir Eugene,
Petitioner, pro se
Desoto Annex
13617 South East Highway 70
Arcadia, Florida 34266-7800

Itl§CLERK

QUESTIONS PRESENTED
I. WHETHER OTHERWISE INADMISSIBLE NONTESTIMONIAL HEARSAY,
WHICH FALLS WITHIN NO STATUTORY HEARSAY EXCEPTION,
ADMITTED FOR NON-HEARSAY PURPOSE AND THEREAFTER USED FOR
THEIR TRUTH AS SUBSTANTIVE EVIDENCE VIOLATES THE
CONFRONTATION CLAUSE AND RIGHT TO A FAIR TRIAL?
II. WHETHER THE STATE COURT VIOLATES EQUAL PROTECTION CLAUSE
OF THE FOURTEENTH AMENDMENT OF THE UNITED STATES
CONSTITUTION?
III.WHETHER A COUNSEL’S FAILURE TO MOVE TO SUPPRESS AN
ACCUSED’S POST-POLYGRAPH STATEMENTS PURSUANT TO WYRICK V
FIELDS, 459 U.S. 42 (1982) CONSTITUTES INEFFECTIVE ASSISTANCE OF
COUNSEL UNDER STRICKLAND?

v

i

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

n

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

LIST OF PARTIES

11

TABLE OF CONTENTS

in

INDEX TO APPENDICES

IV

TABLE OF AUTHORITIES

v, vi

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE PETITION

10

I. The Florida Hearsay Rule, As Applied, Is Unconstitutional

10

II. The Florida Hearsay Rule, As Applied, Violates the Equal Protection
Clause of the Fourteenth Amendment.........................................................

15

III. The State Court Erroneously Applied Wyrick v. Fields, 459 U.S. 42
(1982)..............................................................................................................

18

IV. The State Court’s Application of Wyrick v. Fields, 459 U.S. 42 (1982),
Conflicts with this Court, the First, Third, Ninth Circuits, and Other
District Courts................................................................................................

21

CONCLUSION

23

in

INDEX TO APPENDICES
Appendix A:

Decision of the Fourth District Court of Appeal of Florida.

Appendix B:

Order of the Fourth District Court of Appeal Denying Rehearing.

Appendix C:

Petitioner’s Petition for Writ of Habeas Corpus and Motion for
Rehearing.

Appendix D:

Published Opinion of the Fourth District Court of Appeal of Florida
on Direct Appeal. Eugene v. State, 53 So.3d 1104 (Fla. 4th DCA 2011).

Appendix E:

Repaginated Pertinent Supporting Records to Petitioner’s Petition.

Appendix F

Order of the Florida Supreme Court Dismissing Petitioner’s All Writ
Petition Seeking Review of the Fourth District Court of Appeal of
Florida.

IV

TABLE OF AUTHORITIES
Cases
Adams v. State, 195 So.3d 424 (Fla. 4th DCA 2016)

17

Banks v. State, 790 So.2d 1094 (Fla. 2001).............

16, 17, 18

Bearden v. State, 161 So 3d 1257 (Fla. 2015)..........

14

City of Cleburne, v. Cleburne Living Ctr., 473 U.S. 432; 105 S.Ct. 3249 (1985)

15

Conley v. State, 620 So.2d 180 (Fla. 1993)

16, 17, 18

Crawford v. Washington, 541 U.S. 36, 124 S.Ct. 1354, 158 L.Ed.2d 177 (2004)

5

Davis v Washington, 547 U.S. 813; 126 S. Ct. 2266; 165 L. Ed. 2d 224 (2006).

11

Edwards v. Arizona, 451 U.S. 477; 101 S.Ct. 1880; 68 L.Ed.2d 378 (1981)

19, 20

Engquist v. Oregon Dept., 553 U.S. 591; 128 S.Ct. 2146; 170 L.Ed.2d 975 (2008)....15
Eugene v. State, 200 So.3d 70 (Fla. 4th DCA 2016)................

5

Eugene v. State, 53 So. 3d 1104, 1109 (Fla. 4th DCA2011)...

1, 7,8

Gayle v. State, 216 So.3d 656 (Fla. 4th DCA 2017).................

7, 8, 14, 18

Ghee v. Artuz, 2004 US Dist LEXIS 18998 (E.D.N.Y., 2004)

20

Keen v. State, 775 So.2d 263 (Fla. 2000)..................................

17, 18

Ohio v. Clark, 576 US 237; 135 S.Ct 2173; 192 L Ed 2d 306 (2015)

11, 12

Tillman v. State, 964 So.2d 785 (Fla. 4th DCA 2007)..........................

17, 18

United States v. Fluckes, 297 F. Supp.3d 778 (E. D. MI. 2018).......

20

United States v. Gillyard, 726 F.2d 1426 (9th Cir. 1984)...................

20

United States v. Johnson, 816 F.2d 918 (Cir. 3rd 1987).....................

20

United States v. Leon-Delfis, 203 F.3d 103 (1st Cir. 2000)

20, 21, 22

United States, v. Vaile, 2008 U.S. Dist. Lexis 69373 (U. S. Dist. ID. 2008)

20

Village of Willowbrook v. Olech, 528 U.S. 562; 120 S.Ct. 1073 (2000)

15

v

TABLE OF AUTHORITIES (Continued)
Wyrick v. Fields, 459 U.S. 42 (1982)

i, in, 5, 10, 18, 19, 20, 21, 22, 23

Statutes

Florida Statutes section 90.80l(l)(c)

15

Florida Statutes section 90.802

13

United States Code Annotated Title 28, § 1257

2,3

Rules
Federal Rule of Evidence 80l(c)(l)(2)

15

Constitutional Provisions
Confrontation Clause

i, 9, 10, 13, 14, 21, 22

Equal Protection Clause

i, 14, 17, 21, 22

United States Constitution Amendment VI

.3, 10, 20'

United States Constitution, Amendment V

3, 20

United States Constitution, Amendment XIV, Section I
United States Constitution, Article I, Section 9, Clause 2

vi

3, 14, 17, 21, 22
3

IN THE
SUPREME COURT OF THE UNITED STATES
AMENDED PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari is issued to review the
judgment below.
OPINIONS BELOW
The opinion of the highest state court with jurisdiction to review the merits
appears at Appendix “A” to this petition and is unpublished.
The opinion of the Fourth District Court of Appeal of Florida on direct appeal
appears at Appendix “D” to the petition and is published at Eugene v. State,
53 So.3d 1104 (Fla. 4th DCA 2011).

1

JURISDICTION
The date on which the highest state court with jurisdiction decided my case
was January 27, 2021. A copy of that decision appears at Appendix A.
A timely motion for rehearing was filed and thereafter denied on the March
19, 2021. A copy of that order appears at Appendix B.
The jurisdiction of this Court is invoked under 28 U. S. C. §1257(a)1.

1 Because the Fourth District Court of Appeal of Florida’s decision is without a
written opinion, the Florida Supreme Court has no jurisdiction to review it.
Petitioner did seek review in the Florida Supreme Court and was dismissed based
on same ground. See Appendix F attached.
2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution, Article I, Section 9, Clause 2, “The
Privilege of the Writ of Habeas Corpus shall not be suspended, unless
when in Cases of Rebellion or Invasion the public Safety may require
it.
United States Constitution, Amendment V, “No person ... shall be
compelled in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of law...”
United States Constitution Amendment VI, “In all criminal
prosecutions, the accused shall enjoy the right to a speedy and public
trial, by an impartial jury of the State and district wherein the crime
shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor, and to have
the Assistance of Counsel for his defense.”
United States Constitution, Amendment XTV, Section I, “No State shall
make or enforce any law which [...] shall deprive any person of life,
liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.”
United States Code Annotated Title 28, §1257: “Final judgments or
decrees rendered by the highest court of a State in which a decision
could be had, may be reviewed by the Supreme Court by writ of
certiorari where the validity of a treaty or statute of the United States
is drawn in question or where the validity of a statute of any State is
drawn in question on the ground of its being repugnant to the
Constitution, treaties, or laws of the United States, or where any title,
right, privilege, or immunity is specially set up or claimed under the
Constitution or the treaties or statutes of, or any commission held or
authority exercised under, the United States.”

3

STATEMENT OF THE CASE2
Petitioner was charged and convicted of premeditated first degree murder
based on wholly circumstantial evidence and sentenced to life in prison. (Appendix
E, l). During the course of the investigation, On July 19, 2005, at the request of the
detectives, Petitioner reported to the police department for a polygraph. Prior to
the polygraph, the examiner read and Petitioner signed a Miranda waiver of rights
which made no mention of post-polygraph interrogation and Petitioner was not told
he would be subject to any. The examiner then administered the test. At the
conclusion, the examiner called in the detectives, explained the results then told
Petitioner “Well, hopefully umm, you know, you’ll tell them what you need to tell
them and you go from there. Good luck” then left. (Appendix C, 9). Subsequently,
without re-advisement of his Miranda rights, the following exchange occurred:
Det. Toyota:
Petitioner:
Det. Toyota:
Petitioner:
And the post-polygraph

“So [Petitioner] where does that leave us?
(no audible answer)
You don’t know?
I have no idea sir.” Id. 10
interrogation continued for twenty hours. During the

twenty-hour post-polygraph interrogation, Petitioner: l) was interrogated by four
detectives with at least two present at all times; 2) was escorted to and from the
restroom as needed with its door guarded open and was offered food and water; 3)
was told they knew he committed the murder, was lying about it, and was the sole
viable suspect; and 3) was never told he was free to leave at any time. Id.
2 Unless requested, to avoid unnecessary and voluminous appendix, the concise
facts in this petition are cited as referenced in Petitioner’s Petition for Writ of
Habeas Corpus (Appendix C), Initial Brief and Reply Brief on direct appeal
Repaginated in Appendix E.
4

Petitioner has consistently argued that trial counsel was constitutionally
ineffective for failing to suppress his July 19th post-polygraph statements pursuant
to Wyrick v. Fields, 459 U.S. 42 (1982). Id. 9-12, 19. The state court adopted the
state’s response that this claim is refuted by the record for Petitioner admitted he
was advised of his Miranda rights before the polygraph and denied relief. Id. The
state appellate court affirmed. Eugene v. State, 200 So.3d 70 (Fla. 4th DCA2016). Id.
At trial, the State theorized that Petitioner was the only person with motive
to murder the deceased since she had recently shunned him. In support, the State
sought to introduce the deceased’s emails. Trial counsel objected and argued that
the emails were hearsay in violation of Crawford v. Washington 541 U.S. 36, 124
S.Ct. 1354, 158 L.Ed.2d 177 (2004), and its progeny because they were: 1) offered for
their truth; 2) not subject to cross-examination; 3) irrelevant; and 4) the deceased
was unavailable. The State argued that the deceased’s emails were not hearsay
because they were offered to put Petitioner’s emails in proper context, not for their
truth. The trial court agreed with the State and admitted the deceased’s emails.
Counsel renewed his objection before the emails were admitted into evidence and at
the conclusion of trial in a motion for new trial to no avail. (Appendix “E”, 3-5).
During closing argument, the prosecutor argued in pertinent part:
“You will see from the emails and you will see as we go through the
evidence, that this is what the case comes down to. This man, in the name of
some sick love, couldn’t stand it anymore. On that day, he hit a boiling point
and brutally killed [the deceased].
‘You know it’s a personal crime because not only does he suffocate her,
he also does ligature and strangles her to death. Why both ways? That is
rage. That is anger coming out.

5

He is angry at her for what? You know from the emails that she had
the nerve to reject him. She had the nerve to cut her out of his life. In the
beginning, he told the police officers their relationship was fine. ‘She didn’t
cut me out of her life. You are talking like she cut me out of her life or
something’.
‘You will see from the emails, because he doesn’t know that those are
still on [the deceasedj’s computer and the police will eventually get those.
That is exactly what [the deceased] did. She cut him out of her life’.
‘We know from the emails that she is no fan of [Petitioner’s wife].
There is a relationship that can’t be doubted between [the deceased] and
[Petitioner] you saw it in the emails.’
‘Going back to the [deceased]. Remember that he says that [the
deceased] didn’t cut him off. This is an email from [the deceased] written on
May 18th: I will never get over the fact that you hurt me. I always believed in
you. I always thought we would never part. Unfortunately, I can’t get over the
fact that the man I loved whole heartedly, nothing holding back, could ever do
what you did. The sad thing is, I still love you the same. I just can’t be around
you yet I still love you. I could never hate you because I love you too much.
It’s funny how at the moment, you could look me in the eye and strike me
twice, with no hesitation. It won’t happen again, because I won’t be there
anymore for it to happen. It’s funny how you can look me dead in the face, in
my eyes, and strike me, not once but twice, the person that you claim you
love so deeply. Yet, at the same moment, you didn’t strike [Petitioner’s wife].
That goes to show you who you really love.’
‘She goes on to say: ‘You will be extremely happy to know that me and
Adelyn are broken up. I can’t say broken up, because we were never together.
I mean that our friendship is no longer there, as well. You and your lovely
wife will be happy to know that. Although I never mentioned it to you, all I
ever wanted was his friendship. Nothing else I cherished that friendship; all
the flaws and great attributes that it had. I honest to God I thought he was
an excellent friend.’
‘She is saying right there that she is cutting him off; I will never see
you again. ‘How could you look me look me straight in the eye so coldly and
strike me. Not only did I lose my heart and soul mate, but you and your
lovely wife took a very good friend of mine, as well. Farewell. Goodbye. I will
always remember the [Petitioner] that never hit me.’
‘She rebuffed him and that’s it, it’s over. How dare she. She is going to
leave him? He will show her, he did. He took her life’.
‘[The deceased] said to him: ‘We agreed to have distance between us,
and you broke that today. [Petitioner]. It’s already very hard emailing you
and having to see you, but you are making it very hard for me when you come

6

to me crying. I can’t handle all of that. I am already in a lot of pain. I can’t
take no more. For God sake. I have you up on my ass crying, which makes me
feel even worse. I have Adelyn in the midst of this. I think I honestly hurt his
feelings. Now I believe he doesn’t like me anymore. He wants nothing to do
with me at all. He says he’s okay, but his attitude is distant from me, so I just
leave him alone. I do have a problem with you calling me crying, coming to
me crying. Like I said, I don’t promise you that I will ever talk to you again.’”
(Id. 10-13).
To survive Petitioner’s motion for judgment of acquittal, the state relied
almost exclusively upon Petitioner’s motive as evidenced in the deceased’s emails
and argued:
“Going to motive, [Petitioner] is the only person that had a motive in this
case. Adelyn Severe, there is absolutely no motive whatsoever -that they had
a relationship. If anything, the emails lay out that it was [the deceased] that
wanted to get Adelyn back. Adelyn had moved on
[the deceased] is the one
that shuns [Petitioner] in the end, disrespects him in the end, and lays out
what ultimately happened to her....” (Id. 14, 15).
On direct appeal, counsel argued “trial court committed harmful error by
admitting the deceased’s emails” because despite the prosecutor’s assurance that
the deceased’s emails were not being offered for their truth but to put Petitioners’
emails in proper context, this is precisely how the prosecutor extensively and singlemindedly used them in closing arguments. (Id. '6, 9-14, 16). The state appellate
court adopted the State’s argument and affirmed holding that “the [deceased’s]
emails were not hearsay because they were offered not for the truth of the matters
they contained but to establish the effect that [they] had on [Petitioner], the
recipient of the emails.” Eugene v. State, 53 So.3d 1104, 1109 (Fla. 4th DCA2011).
In 2017, the Fourth DCA decided Gayle v. State, 216 So.3d 656 (Fla. 4th DCA
2017), cited Petitioner’s case and stated:

7

“On May 19, 2015, [Gayle] allegedly sent a text message to the
victim confirming that he was in a sexual relationship with her. This
was clearly ‘a statement, other than one made by the declarant while
testifying.’ § 90.80l(l)(c). The State, however, argues that this
message, as well as the others, was not introduced into evidence with
the intent of proving the truth of the matter asserted. See Eugene v.
State, 53 So. 3d 1104, 1109 (Fla. 4th DCA 2011) (holding that emails
were not hearsay because they were not used to prove the truth of the
assertions therein). But unlike in [Petitioner’s case], the State’s closing
argument in [Gayle’s] case proves otherwise. The State used this
statement as part of its attempt to prove that [Gayle] was having sex
with the victim, and referred to the message as the clearest evidence of
the very thing the text asserted. This text message was hearsay.
Although normally inadmissible, hearsay may be admitted when
a statutory exception is met. § 90.802-804. The State relies here on the
exception found in section 90.803(l8)(a), which allows the admission of
‘[a] party’s own statement’ for use against that party. ” Id at 658-59.
On July 27, 2017, Case# 4D17-2454, Petitioner petitioned and alerted the
court of the disparity in its analysis. The court denied the petition. On January 4,
2021, Case# 4D21-0023, Petitioner petitioned and urged the state court again, inter
alia, to reconsider its previous rulings regarding the deceased’s emails and trial
counsel’s ineffectiveness for failing to move to suppress Petitioner’s July 19th post­
polygraph statements and grant Petitioner a new trial to prevent a manifest
injustice and a violation of Petitioner’s Federal and Florida constitutional due
process rights to l) a fair trial, 2) equal treatment / protection; and 3) effective
assistance of counsel. (Appendix C).
On January 27, 2021, the court denied that petition as being “frivolous and
the claims are successive”. (Appendix “A”). On February 2, 2021, Petitioner filed a
timely motion for rehearing. (Appendix C). On March 19, 2021, the court denied
the same. (Appendix B). On March 21, 2021, Petitioner filed an all writ petition to

8

the Supreme Court of Florida (Case No.: SC21-490), seeking review of the Fourth
District Court of Appeal (Case No.: 4D21-0023). On March 31, 2021, the Supreme
Court of Florida dismissed the petition for lack of jurisdiction to review “an
unelaborated decision from a district court of appeal that is issued without opinion
or explanation...”. See Appendix F.

9

REASONS FOR GRANTING THE PETITION
This Honorable Court should grant certiorari because Florida hearsay rule as
applied is unconstitutional, allowing its agents to circumvent the framers’ intent
that in every criminal prosecution the accused has the right to confront his accuser.
The Court has yet to address circumstances where otherwise inadmissible
nontestifying witness’s nontestimonial hearsay statements, which fall within no
firmly rooted statutory hearsay exception, admitted for nonhearsay purpose and
thereafter used for their truth as substantive evidence with the same effect as
testimonial hearsay, raising an important issue deserving to be resolved because it
is unfathomable that the framers did not intend for the Confrontation Clause to
encompass such circumstances. Further, the issue is important because the Court’s
inaction will allow States’ agents to continue using this and similar tactics
indefinitely with complete impunity. Moreover, the decision below frustrates the
Equal Protection Clause of the Fourteenth Amendment.
Furthermore, the state court’s decision conflicts with not only this Court’s
decision in Wyrick v. Fields; 459 U.S. 42 (1982); but also with the First, Third, and
the Ninth Circuits as well as other district courts and failure to address this conflict
will empower the state court to propagate its erroneous and conflictive decision.
This case presents a unique and timely opportunity to provide clear guidance
especially where written opinions are few at trial and appellate court levels.
I. The Florida Hearsay Rule, As Applied, Is Unconstitutional
It is well established by this Court’s holding in “Crawford v. Washington that
’witnesses,’ under the Confrontation Clause, are those ‘who bear testimony,’ and we

10

defined ‘testimony’ as ‘a solemn declaration or affirmation made for the purpose of
establishing or proving some fact.’ The Sixth Amendment, we concluded, prohibits
the introduction of testimonial statements by a nontestifying witness, unless the
witness is ‘unavailable to testify, and the defendant had had a prior opportunity for
cross-examination.’” Ohio v. Clark, 576 US 237, 243; 135 S.Ct 2173, 2179; 192 L Ed
2d 306 (2015) (internal quotation marks and alteration omitted).
In Davis v. Washington, 547 U.S. 813, 126 S. Ct. 2266, 165 L. Ed. 2d 224
(2006), the court announced what has come to be known as the “primary purpose”
test and explained: “Statements are nontestimonial when made in the course of
police interrogation under circumstances objectively indicating that the primary
purpose of the interrogation is to enable police assistance to meet an ongoing
emergency. They are testimonial when the circumstances objectively indicate that
there is no such ongoing emergency, and that the primary purpose of the
interrogation is to establish or prove past events potentially relevant to later
criminal prosecution.” Ohio v. Clark, 576 US 237, 244; 135 S Ct 2173, 2179-80; 192
L Ed 2d 306 (2015).
The court further expounded on the primary purpose test announced in Davis
emphasizing “that the inquiry must consider ‘all of the relevant circumstances.’ And
reiterated its view in that, when ‘the primary purpose of an interrogation is to
respond to an ongoing emergency, its purpose is not to create a record for trial and
thus is not within the scope of the Confrontation Clause. At the same time, [the
court noted] that ‘there may be other circumstances, aside from ongoing

11

emergencies, when a statement is not procured with a primary purpose of creating
an out-of-court substitute for trial testimony.’” Ohio v. Clark, 576 US 237, 244-45;
135 S Ct 2173, 2180; 192 L Ed 2d 306 (2015).
The court concluded that “under our precedents, a statement cannot fall
within the Confrontation Clause unless its primary purpose was testimonial. Where
no such primary purpose exists, the admissibility of a statement is the concern of
state and federal rules of evidence, not the Confrontation Clause.” However, this
approach allows States’ agents to use nontestifying witness’s nontestimonial
hearsay statements with the same effect as testimonial hearsay by offering the
former under the guise of some nonhearsay purpose and thereafter used them for
the very truth of the matter asserted with complete impunity, even when it falls
within no firmly rooted statutory hearsay exception, which frustrates the framers’
intent that every accused has the fundamental right to confront his/her accuser.
It is axiomatic that the United States Constitution provides a solid floor of
constitutional protections and the states may build a ceiling of protections over that
federal floor. Simply put, States may provide more constitutional protections for
their citizens than the United States Constitution, not less. However, the Florida
hearsay rule, as applied, provides less constitutional protections than the United
States Constitution by making it easier for its agents to introduce otherwise
inadmissible nontestifying witness’s nontestimonial hearsay statements for their
truth under the guise of some nonhearsay purpose and thereafter use such
statements for their truth as substantive evidence with the same effect as

12

testimonial hearsay statements, even when such statements fall within no firmly
rooted statutory hearsay exception, which offends the framers’ intent that every
accused has the fundamental right to confront his accuser and is therefore
unconstitutional.
Here, over hearsay and Confrontation Clause objections, the prosecutor
sought and introduced the deceased’s emails under the guise of putting Petitioner’s
emails in context. However, the prosecutor’s true intent for offering the deceased’s
emails became apparent during closing arguments when she persistently argued
and told the jury that the deceased had in fact cut Petitioner out of her life, the very
truth of the matter asserted, and to contradict Petitioner’s version of the status of
his relationship with the deceased. The prosecutor specifically told the jury:
“You will see from the emails and you will see as we go through the
evidence, that this is what the case comes down to. This man, in the name of
some sick love, couldn’t stand it anymore. On that day, he hit a boiling point
and brutally killed [the deceased].”
“He is angry at her for what? You know from the emails that she had
the nerve to reject him. She had the nerve to cut her out of his life. In the
beginning. [Petitioner] told the police officers their relationship was fine. ‘She
didn’t cut me out of her life. You are talking like she cut me out of her life or
something’.
You will see from the emails, because [Petitioner] doesn’t know that
those are still on [the deceased]’s computer and the police will eventually get
those. That is exactly what [the deceased] did. She cut him out of her life
“We know from the emails that she is no fan of [Petitioner’s wife].
There is a relationship that can’t be doubted between [the deceased] and
[Petitioner] you saw it in the emails.”
“Going back to the [deceased]. Remember that [Petitioner] says that
[the deceased] didn’t cut him off. This is an email from [the deceased] written
on May 18th: [...]
She is saying right there that she is cutting him offi I will never see
you again. ‘How could you look me look me straight in the eye so coldly and
strike me. Not only did I lose my heart and soul mate, but you and your

13

lovely wife took a very good Mend of mine, as well. Farewell. Goodbye. I will
always remember the [Petitioner] that never hit me.”
In essence, the prosecutor used those emails as substantive evidence,
testified for the deceased, and told the jury that l) the deceased had in fact cut
Petitioner out of her life and 2) the deceased’s version of the status of their
relationship is true while Petitioner’s is false. Obviously, the prosecutor did not nor
could have told the trial court at the outset that this was her true intent for offering
the deceased’s emails because the judge would have been compelled to deny their
admission for they would have constituted inadmissible hearsay under Florida
Statutes §90.802, which establish that hearsay is inadmissible as evidence at
trial except as provided by statute', and the emails fall within no statutory
hearsay exception. Bearden v State, 161 So.3d 1257, 1264 (Fla. 2015); see also
Gayle v. State, 216 So.3d 656, 659 (Fla. 4th DCA 2017) (“Although normally
inadmissible, hearsay may be admitted when a statutory exception is met. § 90.802804”). However, clothed with some nonhearsay purpose, i.e., to put Petitioner’s
emails in context, the judge admitted the emails! and thereafter, during closing
arguments, the prosecutor single mindedly and extensively used them for the truth
of the matter asserted as substantive evidence with the same effect as testimonial
hearsay statements with complete impunity. It is unfathomable that the framers
did not intend for the Confrontation Clause to encompass such circumstances.
Furthermore, despite the aforementioned prosecutor’s extensive arguments
and Petitioner’s relentless arguments to the state appellate court, the court adopted
the state’s arguments and maintained that the deceased’s emails were not hearsay

14

because they were not used for their truth but merely to show their effect on
Petitioner their recipient. Hence, this case presents a timely opportunity for this
Court to reinforce the framers’ intent to protect the accused’s fundamental
constitutional right to confront his accuser, including in circumstances, like here,
where otherwise inadmissible nontestifying witness’s nontestimonial hearsay
statements, which fall within no firmly rooted statutory hearsay exception, are
introduced in evidence under the guise of some nonhearsay purpose and thereafter
used for their truth as substantive evidence with the same effect as testimonial
hearsay statements. Further, this issue is important because this Court’s inaction
will allow States’ agents to continue using this and similar tactics to circumvent the
Confrontation Clause indefinitely and with complete impunity.
II. The Florida Hearsay Rule, As Applied, Violates the Equal Protection Clause
of the Fourteenth Amendment.
It is well settled that the Fourteenth Amendment’s Equal Protection Clause
mandates equal treatment under the law. Essential to that protection is the
guarantee that similarly situated persons be treated equally. City of Cleburne, Tex.
v. Cleburne Living Ctr., 473 U.S. 432, 439; 105 S. Ct. 3249; 87 L. Ed. 2d 313 (1985);
see also Village of Willowbrook v. Olech, 528 U.S. 562, 564; 120 S. Ct. 1073; 145 L.
Ed.2d 1060 (2000). The court held in Engquist v. Oregon Dept, of Agr., 553 U.S.
591; 128 S.Ct. 2146; 170 L.Ed.2d 975 (2008), that “When those who appear similarly
situated are nevertheless treated differently, the Equal Protection Clause requires
at least a rational reason for the difference, to ensure that all persons subject to
legislation or regulation are indeed being treated alike, under like circumstances

15

and conditions. Thus, when it appears that an individual is being singled out by the
government, the specter of arbitrary classification is fairly raised, and the Equal
Protection Clause requires a rational basis for the difference in treatment. Id at 602
(citing Olech, 528 U.S., at 564, 120 S.Ct. 1073).
Hearsay is defined as “...a statement, other than one made by the declarant
while testifying at the trial or hearing, offered in evidence to prove the truth of the
matter asserted.”§

90.80l(l)(c), Fla. Stat.(2014); Federal Rule of Evidence

80l(c)(l)(2) (2014). Unless it falls within a firmly rooted statutory hearsay
exception, hearsay may only be offered for nonhearsay purpose.

However, if a

hearsay statement is used for its truth and falls within no firmly rooted statutory
hearsay exception, .such statement is inadmissible hearsay regardless of the
purpose for which the party claim to have offered the statement in evidence.
In Banks v. State, 790 So.2d 1094, 1099 (Fla. 2001), the Florida Supreme
Court determined that in its closing argument, the State clearly used the out-ofcourt statement to establish the truth of the matter asserted therein and held:
“Even when statements are properly admitted [...], it would be
improper for the State to use the statements thereafter for the truth of
the matter asserted therein. [And] regardless of the purpose for which
a party claims it has offered evidence, when an out-oficourt statement
is thereafter used as evidence to prove the truth of the matter asserted,
such use is improper” Id. (internal quotation marks and alteration
omitted).
In Conley v. State, 620 So.2d 180, 182-183 (Fla. 1993), the court held:
“The State argued in closing that [the out-oficourt statement] about
the weapon helped to prove that Conley used a rifle to commit the
offenses of armed burglary, armed sexual battery, and armed robbery.
Regardless of the purpose for which the State claims it offered the
evidence, the State used the evidence to prove the truth of the matter

16

asserted. In so doing, the statement constituted hearsay and fell
within no recognized exception to the rule of exclusion.”) Id.
In Keen v State, 775 So.2d 263, 274 (Fla. 2000), the court held:
“The State argues that the subject matter of the testimony challenged
was not hearsay because it was not elicited to prove the truth of the
matter asserted, but only to show a sequence of events. We reject such
contention. [The out-of-court statements] were used by the State
during closing argument for substantive support not ‘sequence of
events’ purposes. Thus, regardless of the purpose for which the State
now claims the testimony to have been directed, the evidence was in
fact used to prove the truth of the content rendering the content of the
statement hearsay. Id. (internal quotation marks and alteration
omitted).
In Adams v. State, 195 So.3d 424 (Fla. 4th DCA2016), the court concluded:
“...it appears that the state, in two ways, used the dispatcher’s out-ofcourt statement to prove the truth of the matter asserted:
(2) The state’s closing argument repeatedly argued that the
vehicle’s tag corroborated the victim’s identification of the defendant.
Because the state used the ... out-oficourt statement to prove the
truth of the matter asserted, we conclude the trial court erred in
admitting the dispatcher’s statement.” Id at 428-29.
In Tillman v. State, 964 So.2d 785 (Fla. 4th DCA2007), the court concluded:
“The state used the [out-oficourt statements] to suggest in closing that
appellant may have had a gun, which was the reason he fled the scene.
Regardless of the purpose for which the state claimed it offered the
evidence, the state used the evidence to prove the truth of the matter
asserted. In so doing, the statement constituted hearsay with no
exception. Id. 789 (internal quotation marks and alteration omitted).
Here, like in Adams, Banks, Conley, Keen, and Tillman, the trial court
admitted the deceased’s out-oficourt statements (emails) for nonhearsay purpose, to
put Petitioner’s emails in context. Thereafter, in closing arguments, far more so in
here than in Adams, Banks, Conley, Keen, Tillman, the prosecutor improperly used
the emails as substantive evidence to argue and prove the very truth of the matter
asserted, i.e., that the deceased had in fact cut Petitioner out of her life and to

17

contradict Petitioner’s statement to the police. It was harmful error because the
prosecutor made the deceased’s emails a feature in closing argument and there is a
reasonable possibility that the error affected the verdict. While the defendants in
Adams, Banks, Conley, Keen, and Tillman received a new trial based on the same
harmful error, the state court affirmed Petitioner’s conviction and sentence,
maintaining that the “emails were not hearsay because they were not used to prove
the truth of the assertions therein” but merely to show their effect on Petitioner.
The state court’s decision is: l) irrational because, far more so in here than in
Adams, Banks, Conley, Keen, Tillman, and contrary to the state court’s conclusion
and plainly on the face of the record, the prosecutor extensively and single-mindedly
used the deceased’s emails for their truth and substantive effect on the jury during
closing arguments! and 2) arbitrary because while those defendants in Adams,
Banks, Conley, Keen, and Tillman received a new trial based on the same harmful
error, Petitioner was denied one with no rational basis, which frustrates the spirit of
the Fourteenth Amendment’s Equal Protection Clause. Further, the state court
exacerbates the irrationality and arbitrariness of its decision by distinguishing the
prosecutor’s arguments in Petitioner’s case from Gayle, stating “But unlike in
[Petitioner’s easel, the State’s closing argument in [Gayle’s] case proves otherwise.”
Gayle v. State, 216 So.3d at 658.
III.

The State Court Erroneously Applied Wyrick v. Fields, 459 U.S. 42
(1982).
In Wyrick, this Court establishes whether a Miranda waiver for a polygraph

extends to post-polygraph accusatory interrogation, a reviewing court must apply

18

the totality of the circumstances, as Edwards3 requires and the facts that the
suspect requested the polygraph is controlling.
In reversing the Eight Circuit Court of Appeals’ decision, this Court held:
“The court of appeals did not examine the totality of circumstances, as
Edwards requires. Fields did not merely initiate a meeting. By requesting a
polygraph examination, he initiated interrogation. That is Fields waived not
only his right to be free of contact with the authorities in the absence of an
attorney, but also his right to be free of interrogation about the crime of
which he was suspected.” 459 U.S. 42, 49.
The Court held further:
“The eight circuits’ rule certainly finds no support in Edwards, which
emphasizes that the totality of the circumstances, including the fact that the
suspect initiated the questioning, is controllingId at 48.
The Court reversed “Because the court of appeals misapplied Edwards and
created an unjustified per se rule, ...”. Id at 49.
The state court erroneously applied Wyrick because its decision is based only
on the fact that Petitioner was advised of his Miranda rights before the polygraph
but failed to apply the totality of the circumstance test mandated by this Court in
Wyrick, including the critical and controlling factor which this Court emphasized,
i.e.,[“... By requesting a polygraph examination, [Fields] initiated interrogation.
That is Fields waived not only his right to be free of contact with the authorities in
the absence of an attorney, but also his right to be free of interrogation about the
crime of which he was suspected”]-which is missing here. Had Fields not requested
the polygraph, the court would have been compelled to reach a different conclusion.
Here, however, Petitioner merely complied with the detectives’ request to
take the polygraph; and significantly, Petitioner did not initiate the post-polygraph
3

Edwards v. Arizona, 451 U.S. 477; 101 S.Ct. 1880; 68 L.Ed.2d 378 (1981).
19

interrogation. Thus the conclusion below that Petitioner had waived his Miranda
rights for the post-polygraph accusatory interrogation is flawed and find no support
in Edwards because it is hinged solely on the fact that Petitioner was advised of and
signed the Miranda waiver before the July 19th polygraph but it failed to apply the
totality of the circumstances, as Edwards requires and the fact that the Petitioner
did not request the polygraph is controlling. Had Petitioner requested the
polygraph, like in Wyrick, or initiated the post-polygraph interrogation, the
conclusion below would have been supported by Edwards\ however, Petitioner did
neither.
In concluding that re-advisement was not required because Petitioner was
advised of and signed the Miranda waiver before the polygraph, the state court
simply ignores this Court’s clear mandate in Wyrick and creates a per se rule that
once an accused is advised of and signed a Miranda waiver prior to a polygraph, no
re-advisement is required before post-polygraph accusatory interrogation initiated
by the police began. Unlike the state court, the First, Third, and Ninth Circuits as
well as other district courts recognize and properly apply Wyrick to determine
whether a Miranda waiver for a polygraph extends to post-polygraph accusatory
interrogation. See United States v. Gillyard, 726 F.2d 1426 (9th Cir. 1984); United
States v. Johnson, 816 F.2d 918 (Cir. 3rd 1987); United States v. Leon-Delfis, 203
F.3d 103 (1st cir. 2000); Ghee v. Artuz, 2004 US Dist LEXIS 18998 (E.D.N.Y., 2004);
United States, v. Vaile, 2008 U.S. Dist. Lexis 69373 (U. S. Dist. ID 2008); and
United States v. Fluckes, 297 F. Supp.3d 778 (E. D. MI. 2018).

20

IV. The State Court’s Application of Wyrick v. Fields, 459 U.S. 42 (1982),
Conflicts with this Court, the First, Third, Ninth Circuits, and Other District
Courts.
In Gillyard, confronted with facts remarkably similar to the totality of the
circumstances in Petitioner’s case, the Ninth Circuit applied Wyrick and held:
“The difference between the facts in Wyrick and [Gillyardl is much greater
than any generalized appearance of similarity. They are:
1. In Wyrick the defendant and his attorney requested the examination. [In
Gillyardl the defendant consented after the agents suggested that he take
one.
2. In Wyrick the defendant was represented by counsel. [In Gillyardl, he was
not.
3. In Wyrick the statement read to the defendant included a clause much
broader than the standard Miranda warning given [in Gillyardl. [In WyricFi,
and not [in Gillyardl, [Fields] was advised: “If you are now going to discuss
the offense under investigation, which is rape, with or without a lawyer
present, you have a right to stop answering questions at any time or speak to
a lawyer before answering further, even if you sign a waiver certificate.” The
Wyrick warning made it clear to [Fields] that he was not merely taking a
polygraph examination but was going to be asked questions about a specific
offense under investigation.
4. [In Wyrickl the post examination questioning was done by the same person
who conducted the polygraph examination after he had merely switched off
the machine. [In Gillyardl the questioning was not done by the polygraph
operator but by two officers who questioned the defendant for a considerable
period of time after the operator had left the room.” United States v. Gillyard,
726 F.2d 1426, 1429 (9th Cir. 1984)
The Ninth Circuit concluded: “... [The district court] properly applied the
totality of circumstances test repeated many times in Wyrick, and found no valid
waiver.” Id.
Again in Leon-Delfis, faced with the same issue, the First Circuit applied
Wyrick and reversed the decision below concluding:
“While looking at the totality of the circumstances, several courts have
articulated relevant facts to be considered in identifying ‘the background,

21

experience, and conduct of the accused’ in determining whether a signed
waiver of one’s Fifth or Sixth Amendment right to counsel for purposes of a
polygraph test carries over to post-polygraph interrogation. Those
circumstances include who requested the polygraph examination; who
initiated the post-polygraph questioning; whether the signed waiver clearly
specifies that it applies to post-polygraph questioning or only to the
polygraph test; and whether the defendant has consulted with counsel,
(citations omitted)
After careful review, we cannot accept the district court’s holding that LeonDelfis waived his right to counsel for purposes of the post-polygraph
questioning. The difficulty began when the district court applied the wrong
legal standard. The district court stated that ‘the onus is not on the F.B.I.
agent or the government agent’ to avoid questioning. However, because LeonDelfis’ Sixth Amendment right to counsel had clearly attached, the
government could not initiate questioning in the absence of counsel without
potentially violating that right. Had Leon-Delfis initiated the post-polygraph
discussion, we might reach a different outcome. But he did not. ...
In addition, the evidence indicates that Leon-Delfis did not waive his right to
counsel. Leon-Delfis was neither told that post-test questioning would occur
nor signed a waiver that specifically mentioned the possibility of post-test
questioning. Additionally, the FBI agents who questioned Leon-Delfis knew
...; that he did not request the polygraph test but only consented to it after
suggestion by the Assistant United States Attorney; and that Agent Lopez
initiated the post-polygraph conversation and questioning, not Leon-Delfis.”
203 F.3d 103, 111 (Cir. 1<* 2000); see also U. S. v. Johnson, 816 F.2d 918, 92122, n.4 (925) (Cir. 3rd 1987).
Contrary to this Court’s decision in Wyrick, the state court’s decision creates
an unjustified per se rule that once an accused is advised of and signed his Miranda
waived before a polygraph exam there is no need for re-advisement before police
initiated post-polygraph accusatory interrogation began. This rationale is flawed
and contravenes this Court’s holding in Wyrick and conflicts with the First, Third,
Ninth Circuits and other district courts on the same point of law. Accordingly, this
Court should grant certiorari to review and resolve these important conflicts.
In sum, the Florida hearsay rule, as applied, is unconstitutional because it
lessens the United States Constitution’s mandated protections of the Confrontation

22

Clause by making it easier for its agents to introduce otherwise inadmissible
nontestifying witness’s nontestimonial hearsay statements for their truth under the
guise of some nonhearsay purpose and thereafter use such statements for the truth
of the matter asserted as substantive evidence with the same effect as testimonial
hearsay statements, even when such statements fall within no firmly rooted
statutory hearsay exception, which offends the framers’ intent that every accused
has the fundamental rights to confront his accuser and fair trial. Further, it also
violates the Fourteenth Amendment’s Equal Protection Clause, guaranteeing that
similarly situated persons be treated equally.
Therefore, as it stands, this Court should seize this unique and timely
opportunity and set viable precedent to end this practice which violates the
Confrontation Clause and the Fourteenth Amendment’s Equal Protection Clause of
the United States Constitution. Further, it should also seize this unique and timely
opportunity to address this important conflict and bring uniformity in the
application of its mandate in Wyrick v. Fields, 459 U.S. 42 (1982) across the courts.
CONCLUSION
Wherefore, based on the foregoing, the petition for a writ of certiorari should
be granted.
Respectfully submitted,

m

Va

Vladimir Eugene, DC# B04065
Petitioner, Pro se
Date^ June 16, 2021

23

